                    November 23, 1999

                    DEAN R. RODMAN
                    MANAGER, ACCOUNTING SERVICE CENTER

                    SUBJECT:	 Employee Separations
                              Report Number FR-FA-00-001

                    This report presents an interim finding identified during our
                    audit of the United States Postal Service financial
                    statements for fiscal year (FY) 1999, Eagan Accounting
                    Service Center (Project Number 99PA009FR001).

Results in Brief	   The Eagan Accounting Service Center did not have
                    adequate procedures and controls to prevent or recover
                    overpayments to employees who separate prior to the end
                    of a pay period. Employees were overpaid because Human
                    Resource personnel did not always notify timekeepers to
                    adjust work hours for employees who separate prior to the
                    end of a pay-period. In addition, the Payroll Processing
                    Branch did not follow established procedures.
                    Consequently, the Center overpaid 13 of the 49 terminating
                    employees we reviewed and took no action to recover 10 of
                    the identified overpayments during FY 1999.

Background 	        Postal Career Executive Service and Executive and
                    Administrative Schedule employees designated “exempt”
                    from the Fair Labor Standards Act (FLSA) are not required
                    to record daily time entries on timecards. Their time is
                    recorded using the Exception Reporting method where only
                    leave entries are reported. If timekeepers do not receive
                    leave slips or notification of personnel actions, employees
                    are automatically credited with work hours for that period.

                    The Inspection Service identified overpayments to
                    terminating employees and reported this condition in
                    FY 1996 and FY 1998. In FY 1996, management agreed to
                    develop an edit report and written procedures to identify
                    potential errors. The procedures included timely review of
Employee Separations                                                       FR-FA-00-001



                        the edit report and instructions to initiate collection when
                        overpayments occur. In FY 1998, this condition did not
                        improve and management agreed to place more emphasis
                        on review of the edit report. Our review disclosed no action
                        was taken to recover the overpayments identified during
                        FY 1998.

Objective, Scope, and Our objective was to determine whether terminal leave
Methodology           payments were properly calculated and paid. We
                      conducted this portion of the audit in July 1999, in
                      accordance with generally accepted government auditing
                      standards and included tests of internal controls as were
                      considered necessary under the circumstances. We
                      discussed our conclusions and observations with
                      appropriate management officials and included their
                      comments, where appropriate.

Employee                The Eagan Accounting Service Center did not have
Separations             adequate procedures and controls to prevent or recover
                        overpayments to employees who separate prior to the end
                        of a pay period. We randomly selected 49 of 844 terminal
                        leave payments for the period December 19, 1998 through
                        June 18, 1999, and found 13 employees were overpaid a
                        total of $8913. In addition, no action was taken to recover
                        10 ($6592) of the 13 overpayments.

                        Employees were overpaid because Human Resource
                        personnel did not always notify timekeepers to adjust work
                        hours for employees who separate prior to the end of a pay-
                        period. In addition, the Payroll Processing Branch did not
                        follow established procedural controls. Consequently, the
                        Center overpaid 13 of the 49 terminating employees we
                        reviewed and took no action to recover 13 of the identified
                        overpayments during FY 1999.

Recommendations         We offer the following recommendations:

                        The manager, Eagan Accounting Service Center, should
                        require the Payroll Processing Branch to:

                        1) Research all FLSA exempt employees who terminated
                           employment prior to the end of a pay-period during
                           FY 1998 and FY 1999 and initiate action to recover all
                           identified overpayments.



                                           2
                                 Restricted Information
Employee Separations	                                                       FR-FA-00-001




                        2) Coordinate with Human Resources to develop controls
                           to notify timekeepers to adjust hours for FLSA exempt
                           employees who terminate employment prior to the end
                           of a pay-period. We suggest including a sign-off block
                           on the Employee Clearance Record (i.e., Postal Service
                           Form 337) for the timekeeper requiring review of
                           separation date to avoid overpayment.

                        3) Implement procedures that require supervisors to review
                           edit listings and certify that overpayments are identified
                           and recovered.

                        Please furnish a reply within 20 days describing the
                        corrective action planned or taken, including the timeframes,
                        on our recommendations. This finding will be included in a
                        consolidated report for the Eagan Accounting Service
                        Center at the conclusion of the FY 1999 financial statement
                        audit. The report will include your comments and any
                        planned corrective actions. If you have any questions,
                        please contact me at (703) 248-2207 or
                                      .



                        John M. Seeba
                        Director, Financial Audit

                        cc: 	Jayne E. Schwarz
                             Kristine A. Wright
                             Richard Kingsbury
                             John R. Gunnels




                                           3
                                 Restricted Information
